February 10, 2000

NICHOLAS F. BARRANCA
VICE PRESIDENT, OPERATIONS PLANNING

SUBJECT:	 Phase I Remote Encoding Center Consolidation
          (Report Number DA-AR-00-001)

This report presents the results of our audit of the Phase I Remote Encoding Center
Consolidation program. The purpose of this engagement was to evaluate the approval
process and to review the program policies, procedures, and processes for
consolidating the remote encoding centers. The audit disclosed that the Phase I
Remote Encoding Center Consolidation program was properly approved and
economically justified. In addition, there were sufficient policies, procedures, and
controls in place over Phase I consolidations.

Although written comments to our report were not required, in a letter dated
February 4, 2000, management expressed thanks to the Office of Inspector General for
responding to their request for support. We appreciate the cooperation and courtesies
provided by your staff during the audit. If you have any questions or need additional
information, please contact                ,             , at             , or me at
(703) 248-2300.



Richard F. Chambers
Assistant Inspector General
 for Performance

Attachment

cc: Walter F. O’Tormey
    Rosa L. Heeringa
    John R. Gunnels
Phase I Remote Encoding Center Consolidation                                                  DA-AR-00-001



                                          INTRODUCTION
Introduction                   This report summarizes the results of our audit of the
                               Phase I Remote Encoding Center Consolidation program
                               (Project Number 99PA026DA000). The manager, Systems
                               Integration Support requested the audit in a letter dated
                               May 5, 1999. The purpose of the audit was to ensure that
                               consolidations were conducted in accordance with postal
                               regulations.

Results in Brief               Based on our audit and discussions with program
                               management, we determined that the Postal Service
                               completed the first two remote encoding center
                               consolidations in accordance with postal regulations.1

                               We determined that the Phase I Remote Encoding Center
                               Consolidation program was properly approved and
                               economically justified. However, we found that the net cash
                               flow amount in the initial economic analysis of Phase I was
                               overstated. Postal Service personnel agreed with our
                               conclusion and revised the cash flow. Accordingly, this
                               report contains no recommendations and requires no
                               additional management action.

                               In addition, adequate policies and procedures were
                               established to ensure adequate controls existed over the
                               Remote Encoding Center consolidations.

Objectives, Scope,             The objectives of our audit were to determine whether:
and Methodology
                               1) The Phase I Remote Encoding Center consolidation was
                                  properly approved and economically justified.

                               2) Policies, procedures, and processes were established to
                                  ensure adequate controls over the remote encoding
                                  center consolidations.

                               In completing the engagement, we reviewed documents and
                               reports relating to the remote encoding center consolidation.
                               We interviewed Postal Service Headquarters and field
                               officials, visited the Hayward and Selma Remote Encoding
                                                          2



1
 Hayward, California, Remote Encoding Center was closed on September 1, 1999, and Knoxville, Tennessee,
Remote Encoding Center was closed on November 10, 1999.



                                                      1
                                           Restricted Information
Phase I Remote Encoding Center Consolidation	                                                       DA-AR-00-001



                                  Centers in California,2 and attended program meetings and
                                  training courses on the remote encoding center
                                  consolidation.

                                  The audit was conducted from August 1999 through
                                  December 1999 in accordance with generally accepted
                                  government auditing standards. We reviewed internal
                                  controls to the extent we considered necessary under the
                                  circumstances.

Background 	                      The Postal Service articulated its letter automation goals
                                  and strategies in the 1988 Corporate Automation Plan. This
                                  plan envisioned a national network of equipment, together
                                  with customer participation, that would result in the
                                  barcoding of virtually all letter mail. Letter mail without a
                                  barcode cannot be sorted on automated equipment.

                                  When letter mail initially arrives at a mail processing plant,
                                  optical character readers attempt to “read” the address
                                  and/or apply a barcode based on the address information.
                                  If the optical character reader is unable to read the address,
                                  the mail-piece is subjected to the Remote Barcoding
                                  System.3 An image of the address is transmitted via
                                  telephone lines to a remote encoding center. Data
                                  conversion operators, working at computer terminals in the
                                  remote encoding centers, view the images and key in
                                  address information. This information is transmitted back to
                                  the plant, where another automated sorter applies a
                                  barcode corresponding to the address information. The
                                  mail-piece is then processed by automation.

                                  The Postal Service implemented the Remote Barcoding
                                  System in three phases beginning in 1992 with full system
                                  deployment completed in July 1997. In August 1994, the
                                  Board of Governors approved remote computer reading that
                                  allowed computer resolution of addresses instead of manual
                                  encoding. This technology was implemented in the fall of
                                  1995.

                                  Enhancements to the remote computer reading equipment
                                  have increased the overall barcoding rate, thereby reducing

2
  Hayward, California, Remote Encoding Center was the first facility to close and the Selma, California, Remote
Encoding Center was the respective gaining facility.
3
  Remote Barcoding System technology barcodes mail that can not be “read” by Postal Service
equipment/computers.



                                                         2
                                              Restricted Information
Phase I Remote Encoding Center Consolidation                                                     DA-AR-00-001



                                  the manual keying workload at the remote encoding
                                  centers. In May 1999, the Board of Governors approved
                                  funding for further improvements in remote computer
                                  reading technology. Incremental software enhancements
                                  were scheduled for fall of 1999 and 2000.

                                  Postal Service management determined that remote
                                  encoding center consolidations were necessary to control
                                  overhead costs as technological improvements reduced the
                                  workload at the centers. In March 1999, the postmaster
                                  general advised the Board of Governors of postal
                                  management’s plan to close 9 of the 55 remote encoding
                                  centers. Postal Service management anticipate that future
                                  technological improvements will further reduce the workload
                                  and necessitate additional closings.4




4
    On September 22, 1999, Postal Service has announced another phase of remote encoding center closings.



                                                         3
                                              Restricted Information
Phase I Remote Encoding Center Consolidation	                                                 DA-AR-00-001



                                         AUDIT RESULTS
Program Approval 	             We concluded that the vice president, Field Operations
and Funding 	                  Support had the authority to fund the program as part of the
                               operating budget.5 Remote Encoding Center program
                               management worked closely with Finance officials to
                               formulate the economic analysis and develop consolidation
                               program documentation. After reviewing Postal Service
                               policy, Finance officials determined that the remote
                               encoding center consolidation was not a major operating
                               expense investment and therefore did not require a
                               Decision Analysis Report.6 Accordingly, the sponsoring vice
                               president had the authority to fund the program as long as
                               costs did not exceed budgeted funds. Also, according to
                               Finance officials, the Remote Encoding Center
                               Consolidation program was addressed in the approved
                               Remote Barcoding Systems Decision Analysis Reports.7

Economic Analysis8	            The Phase I remote encoding center consolidation will
                               require no capital investment, and should generate a net
                               positive cash flow of about $69 million over its six-year life.
                               During this period, the consolidation will cost approximately
                               $4 million and reduce overhead costs by $15 million.

Policies, Procedures, 	 We determined, from our audit of the consolidation guide
And Processes 	         and the initial remote encoding center consolidations, that
                        policies and procedures were sufficient to ensure transition
                        with adequate controls. At the beginning of the program,
                        program management personnel had no prior experience in,
                        and the Postal Service had no formal policies and
                        procedures in place for, closing and consolidating remote
                        encoding centers. In May 1999, the program manager
                        established a working group comprised of representatives
                        from all major functional groups of the Postal Service to
                        develop policies and procedures for the Remote Encoding
                        Center Consolidation program. In October 1999, officials
                        completed a detailed guide for executing the remote
                        encoding center consolidation. This guide contained
                        policies and procedures on consolidation activities such as:

                               •    Remote encoding center closing planning.

5
  Currently, the vice president, Operations Planning is responsible for the program. 

6
  Postal Service Handbook F-66, General Investment Policies and Procedures, Section 2-6.1

7
  The Board of Governors approved funding the Remote Barcoding Systems in 1990, 1992, 1994, and 1995.
8
  Based on Postal Service projections. 




                                                      4
                                           Restricted Information
Phase I Remote Encoding Center Consolidation	                                  DA-AR-00-001



                             •	   Announcement day activities.
                             •	   Human Resources / Labor Relations activities.
                             •	   Developing an operational ramp-down plan.
                             •	   Communications plan.
                             •	   Finance activities.
                             •	   Time / attendance closeout activities.
                             •	   Purchasing, asset accountability and contract closeout.
                             •	   Social and recreational committee funds closeout.
                             •	   Maintenance activities.
                             •	   Remote Barcoding System equipment relocation.
                             •	   Office automatic data processing / phone/ security
                                  system activities.
                             •	   Personnel computer management operating data system
                                  closeout activities.
                             •	   Records retention and disposition.
                             •	   Building moveout.
                             •	   Follow-up.

                             Further, the Postal Service conducted training classes for
                             key remote encoding center personnel on consolidation
                             procedures. Consequently, the Postal Service managed to
                             consolidate two remote encoding centers as part of Phase I
                             consolidation.

Reduction In Force 	         The Postal Service took sufficient actions to address remote
                             encoding center employee issues. All employees at the
                             closing remote encoding centers are subject to the Postal
                             Service’s Reduction in Force process. The Postal Service
                             addressed career bargaining employees’ issues by
                             executing a Memorandum of Understanding with the
                             American Postal Worker’s Union to facilitate the remote
                             encoding center consolidations. In addition, the Postal
                             Service agreed to consider transitional employees for other
                             non-career assignments at surrounding facilities or at
                             another remote encoding center. In April 1999, the Postal
                             Service waived the “area of consideration” restrictions for
                             career Executive and Administrative Schedule employees at
                             the closing remote encoding centers. This waiver allowed
                             these employees to apply for any Executive and
                             Administrative Schedule vacancy nationwide. Affected
                             Executive and Administrative Schedule employees were
                             responsible for obtaining another assignment prior to the
                             effective date of the Reduction in Force. They will be
                             separated from the Postal Service if unsuccessful.



                                                   5
                                        Restricted Information
Phase I Remote Encoding Center Consolidation	                                DA-AR-00-001




Conclusion                   As a result of planning and developing policies and
                             procedures, we believe the technical and operational risks
                             of the Phase I Remote Encoding Center Consolidation have
                             been minimized. The remaining remote encoding center
                             consolidations should encounter few problems as long as
                             the established guidelines and procedures are followed.

Management’s 	               Management stated they were encouraged by the results of
Comments 	                   our audit. They also noted that the audit validated their
                             justification process and the numerous policies and
                             procedures developed to ensure success with this program.

Evaluation of                Since there were no recommendations in the report, no 

Management’s                 further action is required. 

Comments 





                                                   6
                                        Restricted Information
Phase I Remote Encoding Center Consolidation                     DA-AR-00-001



                   APPENDIX. MANAGEMENT’S COMMENTS




                                                   7
                                        Restricted Information
Phase I Remote Encoding Center Consolidation                     DA-AR-00-001




Major Contributors to
This Report




                                                   8
                                        Restricted Information
